         u.s. DEPARTMENT OF COMMERCE                          l~+~;'~~

                       Office of Inspector General            %~<)   '<...)1/ # ;
                                                                     ~
                                                                 6']-~TES rF t'




                                             "-.
                                             "-.'




                                        ."
                                                        PUBLIC
                                     .' ,               RELEASE
                                  NATIONAL
                      TELECOMMUNICATIONS
                          AND INFORMATION
                           ADMINISTRATION

                                     Internal Controls Over
                                   Bankcard Use Are Sound

         Final Audit Report No. BTD-11549-9-0001/September     1999




                Office of Audits, Business and Trade Audits Division
.'

     \
 . ,\
us. Department of Commerce                                                 Audit Report BTD-11549
Office of Inspector General                                                        Sep..tember1999

number of cardholders during the next annual review. NTIA's complete response to the draft
audit report is attached.                                   '-"

                                                            "
Please provide your audit action plan addressing the recommendations within 60 calendar days,
in accordance with Department Administrative Order 213-5. ",The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions regarding the preparation of
the audit action plans, please contact Andrew R. Cochran, Di~ector,Business and Trade Audits
Division, at (202) 482-4415. We appreciate the cooperation-extended to us by NTIA staff during
the review,'

Introduction

In 1986, several agencies, including the Department of Commerce, conducted a pilot proj ect to
evaluate the use of credit cards (the "bankcard") for small purchases. In 1989, the bankcard was
made available govemmentwide through a contract administered by the General Services
Administration. The objectives of the bankcard program are to (1) reduce procurement
administrative costs and improve cash management by expediting and simplifying small
purchases and (2) improve internal controls to eliminate the fraud and abuse present in other
small purchase methods. Bankcard use was facilitated by the Federal Acquisition Streamlining
Act of 1994 and Executive Order 12931, which eliminated some requirements for purchases of
$2,500 or less, known as "micro-purchases," and encouraged agencies to move the authority to
make simple purchases from procurement offices to program offices.

The Department's Office of Acquisition Management, which is responsible for overseeing the
management of the program within Commerce, in turn has delegated that authority to the Reads
of Contracting Offices (RCOs). The Chief of the Acquisition and Assistance Division at NIST
serves as the NTIA RCO. That RCO further delegated purchasing authority to NTIA local
approving officials and individual cardholders. NTIA officials are responsible for ensuring that
bankcard usage complies with the applicable regulations, policies, and procedures. The RCO,
approving officials, and cardholders are responsible for ensuring that the program is properly
administered.

Purpose and Scope of Audit

In conjunction with our plan to periodically review Commerce agencies' use of the bankcards,
we conducted an audit to determine whether NTIA was utilizing its bankcards in accordance with
the Federal Acquisition Regulation, Part 13, "Simplified Acquisition Procedures"; the Commerce
Acquisition Manual, Part 13, "Commerce Purchase Card Procedures," as revised; and the
Commerce Acquisition Circular 96-01, dated July 1, 1996.

Our audit covered 1,163 discrete transactions, including credits and charge-backs, made by NTIA
headquarters personnel, in Washington, D.C., during FY 1998. The total amount of the

                                                2
                                                        f.'" OFCo
                                                  l~            'fr..
                                                ,i'                ~
                                               tI                     'J.
                                               .                          .   UNITED STATES DEPARTMENT OF COMMERCE
                                                \                     if      The Inspector General
                                                    ~              rv'"
                                                                              Washington,D.C.20230
                                                    0 &'tATES Of ~~




    SEP I 1999

                                                                                             '\."


MEMORANDUM                 FOR:      Larry Irving
                                     Assistant Secretary for Communications


                                      and InfOnnaa                                     ""'          "


FROM:


SUBJECT:
                              f     ~razier
                                     Inspector General

                                    Internal Controls Over Bankcard Use Are Sound
                                                                                 """




                                    Final Audit Report No. BTD-l1549-9-0001

The Office ofInspector General has completed an audit of bankcard use during FY 1998 by the
National Telecommunications and Information Administration. The continued oversight and
review provided by NTIA management, and by staff of the National Institute of Standards and
Technology (NIST) who provide contracting support to NTIA, have resulted in sound internal
controls over NTIA bankcard transactions. We also found that NIST personnel properly
conducted the required annual review of bankcard use. We noted several minor internal control
deficiencies requiring management action as follows:

.            consideration should be given, during the next annual bankcard review, to reducing the
             number of cardholders to further improve internal controls and use existing bankcards
             more efficiently;

.            not all cardholders are storing their credit cards in a secure location; and

.            not all cardholders are receiving the required training or maintaining training
             documentation on site.

Our recommendations          to address these concerns are on page 4.

In response to the draft report, NTIA agreed with most of our findings and recommendations.
NTIA requested that we change the title so as to not leave an unnecessary perception that is
unjustified by our findings. We agree and have so changed the title. NTIA also disagrees with
our recommendation to consider reducing the number of cardholders. NTIA believes at this time
that the distribution of cardholders is based on the needs of each program office and has
advantages for management control. NTIA stated that limiting the number of cardholders is not
required, and doing so would decrease the efficiency and effectiveness of the bankcard
purchasing system, reduce its ability to easily maintain purchasing accountability, and possibly
unnecessarily burden those cardholders that remained. For the reasons stated in the draft report
and reiterated below, we continue to recommend that NTIA examine the necessity for the total




    -.n'H-
u.s. Department of Commerce                                                   Audit Report BTD-11549
Office of Inspector General                                                            Sep/ember 1999

transactions processed was $682,243, for an average of$587 per transaction. We selected a
random sample of 81 transactions, or 7 percent of the total pop~lation of transactions, to test for.
errors among cardholder records. This represented a sample size sufficient to find 95 percent of
errors that would likely occur within the sample population. The
                                                               "- sample was not stratified, as we
were specifically measuring attributes of the NTIA cardholder..,transactions.

We reviewed applicable regulations, policies, and procedures; examined documentation,
management reports, and records; and interviewed officials,.is deemed necessary. We also
reviewed management reports on bankcard usage prepared by the Commerce Bankcard Center.
We conducted our fieldwork from November 1998 through January 1999 at NTIA headquarters
in Washington, D.C. We analyzed the administrative and accounting internal controls relating to
NTIA's use of the government purchase card, including controls over the physical security and
authorized use of the bankcards, and the approval, order, and receipt of purchased items.

In conducting our review, we relied on computer-processed data. We tested the accuracy of the
data by tracing it to original source documents and by comparing it to the same data in other
documents. Based on our tests, we concluded that the data was sufficiently reliable for use in
meeting our objectives.

    We conducted the audit in accordance with generally accepted government auditing standards
    and under authority of the Inspector General Act of 1978, as amended, and Department
    Organization Order 10-13, dated May 22, 1980, as amended.

    Required   Annual Review of Bankcard    Activity Was Performed

    The Commerce Acquisition Manual Part 13, Chapter 1, charges RCOs with the responsibility for
    "...reviewing the Purchase Card Program at least once a year to ensure that cardholders and
    cardholder approving officials use internal controls and follow proper procedures." In response
    to this requirement, personnel from NIST performed a management control review ofNTIA
    bankcard use during the first quarter of calendar year 1998. We found that the review was
    thorough, documented, and included all issues for which the office is responsible. The review
    concluded that NTIA was in compliance with the requirements of the Commerce Acquisition
    Manual and the bankcard program, with minor concerns to be addressed by NTIA officials.

    NTIA Should Reassess the Number of Cardholders        and
    Utilize Potential Purchasing Capacity

    During fiscal year 1998, NTIA had 30 cardholders among its 187 headquarters employees, a ratio
    of one card for every 6.2 employees. Single purchase and monthly credit limits generally were
    $2,500 and $10,000, respectively; only one employee had $25,000 single purchase and $25,000
    monthly limits under an exception to the usual limits. NTIA cardholders' purchases averaged
.   about $22,741 per cardholder. Thus, on average, only 19% of the annual cardholder's

                                                   3
u.s. Department of Commerce                                                  Audit Report BTD-11549
Office of Inspector General                                                          SeE..tember1999

purchasing power was used during fiscal year 1998. We believe that the number of cardholders
is higher than needed, given the unused purchasing capacity al\d the administrative burden of
maintaining proper oversight of card use as required by the Commerce Acquisition Manual. A
review of the need for so many cards might result in the redu~tion of the total number of cards
                                                                "-


and permit more efficient utilization of the remaining cards. As ." discussed above, NTIA did not
agree with us in its response to the draft report, preferring to maintain the current number of
cardholders.
                                                            "

Cardholders Should Store Cards in Secure Location

Of 19 NTIA headquarters cardholders we interviewed, 4 had their bankcards in a wallet or purse,
and 4 kept their cards in an unlocked file cabinet or desk. One bankcard was left at home.
According to the Commerce Acquisition Manual, Part 13, Chapter 1, Item 8. c. (10), cardholders
must, "Keep the purchase card in a secure place." If the purchase card is left in a wallet, purse,
or an unlocked cabinet or desk drawer, there is a risk that the card could be stolen. In its
response to the draft report, NTIA agreed to send reminders about the cardholder responsibilities
to safeguard bankcards.

Cardholders Should Receive Training and Maintain Training Documentation

Part 13, Chapter 1, Item 7 b. of the manual states, "HCOs shall ensure cardholders and
cardholder approving officials review these procedures and view the training video once every
two years This training could be a standard course or one customized to address unique needs
or characteristics for the purchasing organization." Of the 19 NTIA cardholders interviewed, all
told us that they had viewed the standard training video for all departmental cardholders.
However, four told us that they had not received an additional one-day bankcard training class
developed and taught by the purchase card coordinators at NIST to educate cardholders on
proper use. Additionally, no written documentation was available at NTIA to demonstrate that
the cardholders had met the training requirements. Only one employee believed that a certificate
may have been distributed at the NlST class, although that employee was not certain. While not
critical to the maintenance of internal controls, some documentation should be kept on-site at
NTIA to document that such training has been received. In its response to the draft report, NTIA
agreed that the NTIA contact point for cardholder training will maintain a listing of students to
document that all required training has been taken. We have clarified the recommendation
accordingly.

Recommendations

We recommend that the Assistant Secretary for Communications and Information ensures that:

1.      A needs analysis is performed by the NTIA HCO, during the next annual bankcard
        review, to determine whether the number of credit cards currently held can be reduced.

                                                 4
u.s. Department of Commerce                                                 Audit Report BTD-11549
Office of Inspector General                                                          Sep..tember 1999

2.     Bankcards are physically secure at all times.
                                                              "-
3.     NTIA cardholders receive all required training, and doctimentation of their training is
       maintained at NTIA.                                    "
                                                             -.,

Attachment


cc:    Norman L. Osinski
       Chief, Acquisition and Assistance Division
       National Institute of Standards and Technology




                                                  5
                                                                                               ATTACHMENT
                                            ~fot<f       OF Co""
                                        ~                          ~'"       UNITED STATES DEPARTMENT OF COMMERCE
                                      ~ ~
                                      .."                '          1-
                                                     "              ~        The Assistant Secretary for Communications
                                                                             and Information
                                      ~',
                                       ~      1!J ,:     '
                                        "'0""~TES c:fi..-Ii
                                                                    iJ
                                                                             Washington, D.C. 20230



                                                                                 A29~
                                                                                         '-.
MEMORANDUM       FOR         George E. Ross
                             Assistant Insp~ctor
                                           i_.
                                                 General for, Auditing
                                                                             r   ~




FROM:
                              Larry Irving 'r-~)                         [
                                                                             V/'~)   ,


SUBJECT:                      Internal Controls Over Bankcard Use
                              Are Sound But Can Be Improved
                              Draft Audit Report No. BTD-11549-9-XXXX


Thankyoufor providingNTIAwiththe opportunityto reviewand commenton the draft audit
report Internal Controls Over Bankcard Use Are Sound But Can Be Improved. I appreciate the
efforts of you and your staff in working with NTIA to complete this audit.

In general, NTIA agrees with the findings in the draft audit report, as summarized in the
following statement from page 3 of the draft report: "...The review concluded that NTIA was in
compliance with the requirements of the Commerce Acquisition Manual and the bankcard
program, with minor concerns to be addressed by NTIA officials." Although NTIA agrees that
any process can be improved, the title of the report leaves an unnecessary negative perception
on the part of casual readers that is not justified by the minor concerns identified. Please
consider shortening the title to Internal Controls Over Bankcard Use Are Sound.

Specific comments to the recommendations on page 4 of the draft report follow:

Recommendation    1. A needs analysis is performed to determine whether the number of credit
                     cards currently held can be reduced.

NTIA Response:         The current distribution of bankcards is based upon an assessment of
                       and plan for the needs of each program office. The preferred distribution
                       matches bankcard controls with other administrative and organizational
                       controls. Specifically, the advantages of the bankcard and the savings
                       afforded by its use are achieved while fitting nicely into NTIA's
                       management controls on spending within each program area. NTIA is
                       not aware of any DOC requirement that limits the number of cardholders
                       in an operating unit, and have used the distribution, and modest spending
                       limits, to make use of the required procurement tool in a safe manner. As
                       indicated in the draft report, "... the Federal Acquisition Streamlining Act
                       of 1994 and Executive Order 12931 encouraged agencies to move the
                       authority to make simple purchases from procurement offices to program
                       offices."

                       A review of bankcard activities will be undertaken together with NIST on a
                       periodic basis. NTIA, however, believes at this time that reducing the
                       number of cardholders would decrease the efficiency and effectiveness of
                       the bankcard purchasing system, reduce the agency's ability to easily
                       maintain purchasing accountability, and possibly unnecessarily burden
                       those cardholders that remained. The current system evenly distributes
                       the workload across the divisions and offers requisitioners additional
                       cardholder services during absences.
                                                              '''.-.
Recommendation    2.   Bankcards are physically secure at all times.

NTIA Response:         Security of the Bankcard is emphasized during all training sessions
                       conducted by NIST. In addition to the training sessions for new
                       cardholders, NTIA will periodically sel1d out reminders about the
                       cardholder responsibilities to safegua-~d the Bankcard.


Recommendation 3. NTIA cardholders receive all required training and keep documentation of
                  their training on site.

NTIA Response:         It is NTIA policy that all cardholders receive the mandatory training prior
                       to their card being activated. Cardholders are also required to maintain
                       the training manual at their individual workstation. NIST does not issue
                       certificates upon completion of the training course, but instead maintains
                       a master listing of all students that have successfully completed the
                       training course. We will require that our agency contact point maintain a
                       listing as well.


Thank you again for providing this opportunity to comment on the draft report. Please have
your staff contact Ed Ryan of my staff on (202) 482-1056 should you have any questions.
